No.

°5S4a
IN THE

SUPREME COURT OF THE UNITED STATES

FILED
AUG 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

WILLIAM D. LAUGA-PETITIONER
Vs.
STATE OF LOUISIANA-RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

LOUISIANA FIRST CIRCUIT COURT OF APPEAL

PETITION FOR WRIT OF CERTIORARI
DIRECT COLLATERAL REVIEW
WILLIAM D. LAUGA, #568149

LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA. 70712

QUESTION(S) PRESENTED
1. IS THE STATE OF LOUISIANA VIOLATING THE DUE PROCESS CLAUSE OF THE SIXTH
AMENDMENT BY NOT ADDRESSING CLAIMS RAISED BY PETITIONER ON A LAW THAT IS
BASED ON RACIAL DISCRIMINATION, AND CAN THE STATE OF LOUISIANA
PROCEDURALLY BAR A PETITIONER ON A LAW THAT IS UNCONSTITUTIONAL BASED
ON RACIAL DISCRIMINATION AND IS VOID ACCORDING TO THE FOURTEENTH
AMENDMENT’S PRIVELEGE AND IMMUNITIES CLAUSE.

i.

LIST OF PARTIES

[ X ] All parties appear in the caption of the case on the cover page.

a.

TABLE OF CONTENTS
QUESTION PRESENTED

i

LIST OF PARTIES

ii

TABLE OF CONTENTS

iii

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES CITED

,vi

OPINIONS BELOW

vii

JURISDICTION

vii

STATUTORY PROVISIONS INVOLVED

vii

STATEMENT OF THE CASE

viii

REASONS FOR GRANTING THE PETITION
I.

A.
II.

The United States Supreme Court has Opined and the State of Louisiana conceded to
Louisiana’s Article 1 § 17 of the Louisiana Constitution and Article 782 of the
Louisiana Code of Criminal Procedure were enacted based on Racial Discrimination.
The State Of Louisiana continues to procedurally bar petitioner’s, settling this matter
falls squarely within this Court’s special competence and responsibility.......................
Elementary principles of judicial federalism would prohibit a state court from ruling
on federal claims.
The number of petitioner’s affected by the Louisiana Court’s decisions justify the
Court’s time and effort even in the absence of the usual factors favoring certiorari.....

CONCLUSION
APPENDICES..

......... xxvi-xxviii
after conclusion

Ul.

INDEX TO APPENDICES
Appendix

A

Rec. Doc. No.

2012-KA-0842

Page

Court of Appeals’ Order Denying Writ

B

District Court Proceedings

C

Louisiana Supreme Courts’
Denial of Certiorari

D

Exhibits to State Court
Proceedings.

TABLE OF AUTHORITIES CITED

U.S. Constitutional Provisions
U.S. CONST, amend. 14
U.S. CONST, amend. 6
State Constitutional Provision
Article 1 § 17(a)

Federal Statutes
U.S.C.A. 2254

IV.

State Statutes

La. Code of Criminal Procedure Article 782

Cases
William D. Lauga v. State of Louisiana, 2012-KA-0842

,vi

State v. William D. Lauga, No: 2010 KA 2209...............

,V11

State v. William D. Lausa, No: 2013-KO-0157

,V11

Roberts v. Cockrell, 319 F. 3d 690(5th Cir. 2003)....................

x

William D. Lausa v. State ofLouisiana, NO. 2014-KW-1203

vm

William D. Lausa v. State of Louisiana. Dkt. No. 2014-KH-2438

vm

Ramos v. Louisiana, 140 S.Ct. 1390

vm

William D. Lauga v. State of Louisiana. Docket Number 2020-KW-1067

vm

William D. Lausa v. State of Louisiana, Docket Number 2021-KH-00373

,vm

Alexander v. Cockrell. 294 F.3d 626

x

Yick Wo v Hopkins, Sheriff etc. 6. S.Ct. 1064

,X111

Byers v. United States. 273 U. S. 28, 47 S. Ct. 248...................................

xiv

Arlington Heights v. Metropolitan Housins Cory.. 429 U.S. 252 (1977)

,XV1

Hunter v. Underwood. 471 U.S. 222,228-B1 (1985)...............................

,XV11

U.S. v Fordice. 505 U.S. 717 (1992).........................................................

xxm

Abbott v. Perez. 138 S. Ct. 2305 (2018)....................................................

XXlll

Jackson v. Louisiana, 406 U. S. 365 (1972)............................................

XXIV

V.

Petitioner respectfully prays that a writ of certiorari (Direct Collateral Review) issue to review
the order of the First Circuit Court of Appeal, State of Louisiana; denying petitioner’s successive
post-conviction application regarding a constitutional question of law.
OPINIONS BELOW
The order of the First Circuit Court of Appeals, 2012-KA-0842 , denying Mr. Lauga’s PostConviction Application appear in Appendix A. The opinions of the United States Supreme Court
Justices appear in Appendix D. (Within the Evangelisto Ramos case).

JURISDICTION
The First Circuit Court of Appeal, State of Louisiana denied the timely Application for PostConviction on January 14, 2021. App. A. This Court therefore has jurisdiction under 28 U.S.C. §
2254 and Rule 10 of the Supreme Court of the United States.
STATUTORY PROVISION INVOLVED
Section 2254 of Title 28 of the United States Code provides in relevant part:
(d) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Suprem Court of the United States....
vi.

STATEMENT OF THE CASE

William D. Lauga was charged by Bill of Information with Armed Robbery in violation
of La. R.S. 14:64. Mr. Lauga was arraigned and pled not guilty to the charge on November 3,
2009. On April 26, 2010, jury trial commenced.
Trial continued until April 28, 2010, on which date the jury returned a verdict of guilty
as charged. Mr. Lauga filed motions for Post-Verdict Judgment of Acquittal and for new trial
which were denied by the trial court on August 16, 2010. On that date, Mr. Lauga was sentenced
to 65 years imprisonment in the Louisiana Department of Corrections at hard labor without
benefit of probation, parole, or suspension of sentence. Mr. Lauga also filed a motion to
reconsider sentence on October 15,2010 which was denied by the trial court on October 19,2010.
On December 28, 2010 Mr. Lauga filed an appeal into the First Circuit Court of Appeal
under docket number 2010-KA-2209. On June 10,2011 the First Circuit Court of Appeal vacated
the sentence and remanded the case back to the trial court for sentencing.
On June 10, 2011 the Louisiana 1st Circuit Court of Appeals affirmed Petitioner’s conviction
and sentence on direct appeal. State v. William D. Lauga, No: 2010 KA 2209 (unpublished
decision). Mr. Lauga had ninety (90) days to seek review by the U.S. Supreme Court, thus Mr.

Vll.

Lauga’s conviction and sentence became final on November 28, 2013. The Louisiana Supreme
Court denied relief on August30, 2013, State v. William D. Lauga, No: 2013-KO-0157.
Mr. Lauga’s conviction became final for the purpose of the Anti-Terrorism and Effective
Death Penalty Act on November 28, 2013, after the 90 day period for seeking relief in the United
States Supreme Court expired. Roberts v. Cockrell, 319 F. 3d 690(5th Cir. 2003).
Mr. Lauga timely filed his Application for Post-Conviction Relief into the trial court (208)
days later on June 24, 2014, within one year of the affirmation of his conviction and sentence,
preserving both his state post-conviction rights and the federal habeas deadlines established by
the Anti-Terrorism and Effective Death Penalty Act, 28 U.S.C. & 2244. The trial court denied
relief on July 16, 2014. Petitioner was served a copy of that denial on July 21, 2014. Petitioner
then filed to the First Circuit Court of Appeals (23) days later on August 14, 2014.
The First Circuit Court of Appeals denied Mr. Lauga’s Post-Conviction Application on
October 23, 2014. (NO. 2014-KW-1203).
Mr. Lauga timely sought writs in the Louisiana Supreme Court (29) days later on November
21, 2014. The Louisiana Supreme Court denied Mr. Lauga relief on September 25, 2015 (Dkt.
No. 2014-KH-2438), through the Louisiana State Penitentiary legal mail delivery system, signing
for same in accordance with penitentiary rules and procedures.

Vlll.

Mr. Lauga then filed a Second or Successive Post-Conviction Relief Application after the
Supreme Court’s decision in Ramos v. Louisiana. 140 S.Ct. 1390 into the 22nd Judicial District
Court, Parish of St. Tammany on August 27, 2020, which was then denied by the Honorable
Judge Scott Gardner of division “G” on September 30, 2020, and filed by the Clerk of Court
October 06, 2020.
Mr. Lauga then filed his Writ of Appeal to the First Circuit Court of Appeal on October 21 ,
2020. The First Circuit Court of Appeal’s denied Mr. Lauga’s Writ on January 14, 2021, under
Docket Number 2020-KW-1067 with a one word denial.
Mr. Lauga then filed his Writ of Certiorari into the Louisiana Supreme Court on February 01,
2021, which was then denied on May 25th, under Docket Number 2021-KH-00373.

IX.

QUESTION OF LAW NUMBER 1.
IS THE STATE OF LOUISIANA VIOLATING THE DUE PROCESS CLAUSE OF THE SIXTH
AMENDMENT BY NOT ADDRESSING CLAIMS RAISED BY PETITIONER ON A LAW THAT IS
BASED ON RACIAL DISCRIMINATION, AND CAN THE STATE OF LOUISIANA PROCEDURALLY
BAR A PETITIONER ON A LAW THAT IS UNCONSTITUTIONAL BASED ON RACIAL
DISCRIMINATION AND IS VOID ACCORDING TO THE FOURTEENTH AMENDMENT’S
PRIVELEGE AND IMMUNITIES CLAUSE.

ARGUMENT NUMBER 1.

The United States Court of Appeals for the Fifth Circuit held in Alexander v. Cockrell, 294
F.3d 626 “ an Unconstitutional statute is void ab initio, having no effect, as though it had never
been passed.” Any law passed on the basis of Racial Discrimination is in direct violation of the
Privileges and Immunities Clause to the Fourteenth Amendment to the United States Constitution.
Mr. Justice Thomas stated in his concurring opinion of the judgment in Ramos v. Louisiana,
140 S.Ct. 1390, that The Privileges or Immunities Clause provides that “[n]o State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United States.”
Amendment 14 § 1. [T]he ratifying public understood the Privileges or Immunities Clause to
protect constitutionally enumerated rights” against abridgment by the States.
“ I would accept petitioner’s invitation to decide this case under the Privileges or Immunities
Clause. The Court conspicuously avoids saying which clause it analyzes. See, e.g., ante, at 1394x.

95, 1397. But one assumes from its silence that the Court is either following our due process
incorporation precedents or believes that “nothing in this case turns on” which clause applies,
Timbs, supra, at—, 139 S.Ct., at 691 (Gorsuch, J., concurring).
Mr. Justice Gorsuch stated in the court’s opinion that “the fact that Louisiana and Oregon may
need to retry defendants convicted.. ..but new rules of criminal procedure usually do.” Further he
went on to state, “Though it’s hard to say why these laws persist, their origins are clear. Louisiana
first endorsed non-unanimous verdicts for serious crimes at a constitutional convention in 1898.
According to one committee chairman, the avowed purpose of that convention was to “establish
the supremacy of the white race,” and the resulting document included many of the trappings of
the Jim Crow era: a poll tax, a combined literacy and property ownership test, and a grandfather
clause that in practice exempted white residents from the most onerous of these requirements.”
“We took this case to decide whether the Sixth Amendment right to a jury trial....it’s
necessary to say a bit more about the merits of the question presented, the relevant precedent,
and, at last, the consequences that follow from saying what we know to be true.”
Madam Justice Sotomayer wrote: “Finally, the majority vividly describes the legacy of racism
that generated Louisiana’s and Oregon’s laws... but also because the States’ legislatures never
truly grappled with the laws’ sordid history in re-enacting them.”

xi.

Clearly this most Honorable Court and all of the Justices that sit upon it have realized and
verbalized the fact that Louisiana’s Legislators founded a Constitutional law that was based on
racial discrimination abridging the Fourteenth Amendment’s Privileges and Immunities Clause.
The prohibition against the deprivation of any rights, privileges, or immunities, secured or
protected by the Constitution and laws of the United States was introduced by the revisers in
1874. R.S.s 5510, 18 U.S.C.A.s 52. This effort of congress renewed several times, to protect the
important rights of the individual guaranteed by the Fourteenth Amendment cannot be an Idle
Gesture.
The fact that the State of Louisiana may not have been thinking in Constitutional terms is
not material where their aim was to deprive citizens of a right and that right was protected by the
Constitution, when they acted in this way it was in reckless disregard of constitutional
prohibitions or guarantees.
Generally state officials know something of the individual’s basic legal rights. If they do not,
they should, for they assume that duty when they assume their office. Ignorance of the law is

no

excuse for men in general. It is less an excuse for men whose special duty is to apply it, and
therefore to know and observe it.

xu.

At any rate, when their actions exceed honest error of judgment and amounts to abuse of their
office and its function, they enter such a domain in dealing with a citizen’s rights; they should do
so at their peril for their sworn oath and their first duty are to uphold the Constitution, then only
the law of the State which too is bound by the charter.
To the Constitution state officials and the state them-selves owe first obligation. The federal
power lacks no strength to reach their malfeasance when it infringes constitutional rights. If that
is a great power, it is one generated by the Constitution and Amendments. The right not to be
deprived of life or liberty by a state official who takes it by abuse of power and office is such a
right.
The right not to be deprived of life without due process of law is distinctly and lucidly
protected by the Fourteenth Amendment. American principles of law and our constitutional
guarantees mean something more than pious rhetoric.
No State can empower an official to commit acts which the Constitution forbade the State
from authorizing, whether such unauthorized command be given for the state by its legislative or
judicial voice.
In Yick Wo v Hopkins, Sheriff etc. 6. S.Ct. 1064, it clearly states:

XUl.

A conviction under an unconstitutional law “is not merely erroneous, but is illegal and void and
cannot be legal cause of imprisonment. This case was heard by the Supreme Court 10 years
before Louisiana’s Constitutional Convention was held in 1896.
At that constitutional convention, President John B. Knowles stated in his opening address:
“And what is it that we want to do? Why it is within the limits imposed by the Federal
Constitution to establish white Supremacy in this state.”
While it is one thing to deprive a citizen of his rights, it is quite another to emasculate an Act
of Congress designed to secure individuals their Constitutional rights by spinning distinctions
concerning the scope of authority entrusted to its lawmakers.
There could be no clearer violation of the Amendment. No act could be more final or complete,
to denude Mr. Lauga of rights secured by the Amendment’s very terms. Those rights so destroyed
cannot be restored. Nor could the part played by the state’s power in causing their destruction be
lessened.
The United States Supreme Court held in Wong Sun, Byers v. United States. 273 U. S. 28,
47 S. Ct. 248, thus we conclude that the court of appeals “finding that the officers” uninvited
entry into Toy’s living quarters was unlawful and that the bedroom arrest which followed was
likewise unlawful.... It is conceded that Toy’s declarations in his bedroom are to be excluded if
xiv.

they are to be “fruits” of the agents’ unlawful actions.
The Constitution of the United States specifically says that no law may be enacted based on
racial discrimination. There is no doubt that Louisiana’s Article 1 subsection 17 and La. C. Cr.
P. Art. 782 are the “fruits” of a racially motivated law. However, the tainted soil from which
that tree sprung was laced with the toxic fertilizer of advancing white supremacy and this tree
has bom not only rotten, but unconstitutional fruit. It should be this honorable Courts duty to
purge the primary taint of an unlawful enactment and vacate the Petitioner’s conviction and
sentence, order a new trial without his constitutional rights being violated, and remove the racist
nature by which he was convicted. It is a well-established tenet of statutory construction under
the mle of lenity.. ..Thus, criminal statutes as written are resolved in favor of the accused and
against the state.... The mle of lenity applies to penalty provisions as well as substantive.
Louisiana’s own legislative intent under the 1997 resolution states the following:
“WHEREAS, the preamble and the Declarations of Rights, as set forth in Article 1 of the
Constitution of Louisiana, establish certain guaranties and protections for individual rights and
liberties; and
“WHEREAS, this constitutional declaration of rights is not a duplicate of the Constitution
of the United States of America or merely coextensive with it; the citizens of Louisiana have
choses a higher standard of individual liberty than that afforded by the Constitution of the United
States of America and the jurisprudence interpreting the federal constitution; and

xv.

“WHEREAS”, the Supreme Court of Louisiana gives careful consideration to the United
States Supreme Court’s interpretations of relevant provisions of the federal constitution, it cannot
and should not allow those decisions to replace the independent judgment in construing our
state’s constitution, which affords Louisiana’s citizens greater freedom and protection of
Individual Liberties.

Clearly the Legislators in 1997 were concerned with not only following the Constitution of
the United States, but also in guaranteeing its citizens greater freedom and protection. However
it took the legislators until January of 2019 to end a law that was based on racial discrimination,
and then only as an Amendment that the citizens of Louisiana voted to change when those same
legislator’s could have removed the racial taint themselves by declaring it unconstitutional.
The Fourteenth Amendments Equal Protection Clause states: racially motivated laws are
presumptively unconstitutional. Facially race neutral laws will be deemed unconstitutional when
on the motivating factors in its adoption is racial discrimination. Arlington Heights v.
Metropolitan Housing Corn,, 429 U.S. 252 (1977); See also Hunter v. Underwood. 471 U.S.
222, 228-B1 (1985).
The Court held that five factors would be used to determine if a facially race neutral law was
motivated by invidious racial discriminatory intent, in violation of the 14th Amendment’s Equal
Protection Clause: 1) the historical background of the enactment; (2) sequence of events leading
to the enactment; (3) legislative history of the enactment; (4) statements by decision makers; and
xvi.

(5) discriminatory effect. 429 U.S. @ 267-68, “Determining whether invidious discriminatory
purpose was a motivating factor demands a sensitive inquiry into such circumstantial and direct
evidence of intent as may be available. “Id. @ 266.
If a showing can be made that the law was passed with racial motivation and has a disparate
impact, the burden shifts to the defender of the law to show that the law would have passed despite
the racial impact. Hunter, 471 U.S. @ 22-228.
However, the Court in Hunter, held that a facially race neutral law was motivated by
invidious racial discrimination and was unconstitutional under the 14th Amendment where the
law continued to have a racially disparate impact despite technical amendments since adoption.
471 U. S. @ 233. The Supreme Court found the following evidence sufficient to hold that the
original enactment at issue in Hunter was adopted with invidious racial discrimination and
therefore invalidated the “new” law.
Although understandably no “eyewitnesses” to the 1901 proceeding testified, testimony and
opinions of historians were offered and received without objection. These showed that the
Alabama Constitutional Convention of 1901 was part of a movement that swept the post
reconstruction south to disenfranchise blacks... the delegates to the all-white convention were

xvii.

not secretive about their purpose. John B. Knox President of the Convention, stated in his opening
address:
“And what is it that we want to do? Why it is within the limits imposed by the Federal
Constitution, to establish white supremacy in this state.” Official Proceedings of the
Constitutional Convention of the state of Alabama, May 21, 1901 to September 03, 1901, p. 8
(1940)
Indeed, neither the district court nor the appellant’s seriously dispute the claims that this
zeal for white supremacy ran rampant at the conventions.^/7/ U. S. @ 228-29. The Court
also adopted the analysis of the Court of Appeal that minority voters were 1.7 times more
likely to be removed from the voter rolls than white voters, and that this disparate impact
was sufficient to prove an equal protection clause violation. 471 U. S. 227. The Court in
Hunter finally held that it was immaterial to the analysis if the law at issue would have
been passed “today”, without the racial discrimination because the law as adopted was
motivated by racial animus and therefore violated the standard in Arlington Heights, 471
U. S. @223.
The Court in Arlington Heights decided the case on the grounds that challenges of the law
had failed to prove racially motivated intent. 429 U. S. @ 270-71. The current matter is

XVlll.

distinguishable on its face from Arlington Heights. The five factors outlined in the adoption of
the non-unanimous jury verdict rule. The racial motivations of the conventioneers in 1898 has
been persuasively demonstrated by the uncontested testimony of Professor Aiello and Professor
Frampton in the Maxie case. The testimony clearly establishes that the delegates convened to
stop political and legal rights from the African American population of Louisiana.
Applying the factors in Arlington Heights, it is clear that the non-unanimous jury verdicts
were motivated by racial animus. The uncontroverted expert testimony of Professor Aiello in
Maxie shows that the Post - Reconstruction South intended to remove African Americans from
the political and legal process. There is evidence in the form of news articles, the main source of
societal belief in this era, that white supremacist saw African American Jury Service as
counterproductive to the cause of Redeemers. The evidence also indicates that that white
supremacist in Post Reconstruction Louisiana viewed African Americans as a homogeneous
group whose beliefs were antithetical to those of the whites and that African Americans would
“thwart” justice at every opportunity.
Shortly before the opening of the convention of 1898, the federal government had invitiated,
or at least threatened to invitiate an investigation into the jury practices throughout Louisiana in
response to the THEZN case. While the Department of Justice never really undertook the
xix.

endeavor, the conventioneers were keenly aware that any enactments regarding the jury process
would be watched carefully. As a result, the nonetheless adopted a facially race neutral law that
was designed to ensure that African Americans jury service would be meaningless by
constructing a non-unanimous jury verdict system based on relative demographics of the
population. That is, it would be highly unlikely that one jury would have more than three African
Americans, and therefore, their service would be silenced. This was all predicated on the belief
that the races voted as groups and African Americans as a group could not be trusted with the
administration on justice.

At the onset of the 1898 Convention, the President of the Convention, E.P. Struttschnitt
made the following remarks:

“We know that this convention has been called together by the
people of the state to eliminate from the electorate the mass of
corrupt and illiterate voters who have the last quarter of the
century degraded our politics.....with unanimity unparalleled
(sic) to the Democratic Party of this State the solution to the
question of the purification of the electorate. They expect that the
question to be solved, and to be solved quickly.”

xx.

Official Journal of the Proceeding of the Constitutional Convention of the State of
Louisiana, held in New Orleans 1898, p.3. At the closing of the Convention, Thomas Semmes,
the Chair of the Judiciary Committee, offered the following statement:
“When we eliminate the Democratic Party or the democracy of the State,
what is there left that which we came here to suppress? I don’t allude to the
fragments of what is called the Republic Party. We met here to establish the
Supremacy of the White Race which constitutes the Democratic Party of the
State.”

Official Proceeding, p. 374. It is abundantly clear from the documentary evidence and the
uncontroverted testimony in the Maxie trial that the motivating factors behind the constitutional
convention of 1898 was to establish white supremacy throughout the State of Louisiana.
Regardless of what society might have felt at the time, the leaders of the convention openly and
on the record endorsed racial discrimination and white supremacy as the goal and outcome of the
convention.
While the record of discriminatory disparate impact coming from the original 1898 enactment
requiring a majority 9-3 to convict has not been empirically established. The Court in Maxie took
judicial notice that a 10-2 majority verdict rule can create comparative racial disparities that are

xxi.

statistically significant, the old rule of 9-3 must by logic and definition create at a minimum an
equally disparate racial impact.
Under the analysis of Arlington Heights, the initial enactment of 1898 is unconstitutional
under the Fourteenth Amendment’s Equal Protection Clause. However, the analysis does not end
there. The Question is whether current policy prior to the January 01, 2019 amendment is also
unconstitutional as applied. The case in Maxie was substantially similar to the original enactment
in 1898. It continues to violate anyone’s right who was convicted and sentenced under that law
since it had a disparate impact. As the uncontroverted testimony offered by Professor Frampton
and Mr. Simmerman in the Maxie case, the comparative disparities are significant and startling.
African American defendants are being convicted by non-unanimous juries 30% more frequently
than white defendants. The original enactment from 1898 was unconstitutionally motivated by
race and the current enactment continues to have a discriminatory impact. Under the Hunter
analysis, the original non-unanimous jury verdict scheme is unconstitutional.
While it is clear that the 1898 non unanimous jury verdict schemes are Un-constitutional,
it does not answer the question with respect to the Amendment prior to January 01, 2019 enacted
by the legislature. This is a different issue to analyze. The Supreme Court has a line of

XXII.

jurisprudence dealing with the perpetuation of racially discriminatory policies that have
cleansed the past discrimination. U.S. v Fordice. 505 U.S. 717 (1992). Fordice stands for the
proposition that if a new policy is enacted that is rooted in or fairly traceable to a policy motivated
by invidious racial discrimination and the new enactment continues to have discriminatory
effects, the new policy violates the Fourteenth Amendment. 505 U.S. @ 737. The new policy is
not rooted in or fairly traceable to a prior enactment, then it must be shown that the enactment is
itself violative of the Fourteenth Amendment under the Arlington Heights standard. 505 U.S. @
737.
Following from Fordice, was the recent case in June 2018, Abbott v. Perez. 138 S. Ct. 2305
(2018). Abbott is a voting rights case dealing with Texas redistricting plans. A 2011 plan adopted
by the legislature was never allowed to go into effect by a three judge panel of a federal district
court. 128 S. Ct. 2313. The district court created and adopted a plan for use in 2012, id., the Texas
legislature later adopted the plan developed by the district court with minor changes in 2013. Id,
The three judge panel of the district court in 2017 invalidated the plans adopted by the state in
2017 and held that the plans were based on the enacted 2011 plans and the 2013 adoption had not
cleansed the enactment of its racial motivation. Id.
The Abbott court held in pertinent part, that the burden of proof to challenge a new policy
never before enacted lies with challengers of the law. 138 S. Ct. 2325. The case before the court
XXlll

in Abbott was about new policy, drafted by the legislature based on district courts maps. The
reason the state was not required to show that the “first taint” of racial discrimination had been
cleansed was because there was no indication that the district court plans adopted, albeit with
small changes, by the legislature had been motivated by discriminatory intent or by the 2011
legislative plan, id. The Supreme Court took great pains to distinguish Abbott from the
perpetuation cases stemming from Fordice because the enactment in Abbott was not fairly
traceable to any previous discrimination because the legislature reported off the maps given it by
the district court. If a policy can be traced to a previously discriminatory enactment, the correct
standard of review is that announced in Fordice.
In the Maxie case the court answered the question that the 1973 convention of the Louisiana
Legislature did not sufficiently cleanse the provision of its discriminatory past and intent to pass
constitutional muster under Fordice. The court also held that there was still taint of invidious
racial discrimination and legislature wanted to continue the majority verdict scheme as enacted
in 1898 because the Supreme Court had affirmed the policy in Jackson v. Louisiana, 406 U. S.
365 (1972). In the Maxie case it was also shown to the court under Arlington Heights and Fordice
analysis that the empirical analysis conducted showed statistically significant results that
demonstrated disparated impacts to African Americans.

XXIV.

It should therefore be clear to this court based on the uncontroverted testimony in the Maxie
case that Article 1 subsection 17 of the Louisiana Constitution and Art. 782 of the Louisiana Code
of Criminal Procedure prior to the January 01, 2019 Amendment are unconstitutional based on
racial discrimination and violated the Petitioner’s Sixth and Fourteenth Amendments Right’s to
the United States Constitution.
Since it is abundantly clear that Louisiana’s Art. 1 subs. 17 and Art. 782 of the Louisiana Code
of Criminal Procedure as enacted prior to January 01, 2019 are unconstitutional based on racial
discrimination, it should also be clear that the Petitioner’s 14th Amendment Right under the
Privileges and Immunities Clause were violated and his conviction and sentence should be set
aside.
A conviction under an unconstitutional law “is not merely erroneous, but is illegal and void
and cannot be a legal cause of imprisonment. It is true, if no writ of error lies, the judgment may
be final but... if the laws are unconstitutional and void, the circuit court acquired no jurisdiction
of the cause. It follows then that a court has no authority to leave in place a conviction and
sentence that violates a constitutional right, regardless of whether the conviction or sentence
becomes final before the rule was announced.”

XXV.

denying them what is guaranteed them by the Constitution and laws that have been enacted even
prior to the State of Louisiana taking that right from them in direct conflict to United States
Supreme Court precedent.
Not even the Solicitor General for the State of Louisiana could deny that the law stemmed
from racial discrimination, and in fact conceded to that point in Ramos. All nine Justices in
Ramos understood that the law was based on racial animus, now the only issue left to resolve is
one of a solution. An issue that can only be cured by giving back the same Rights that were
violated in the first place.
No matter how painful it may be to admit what was done, how much more so would it be to
continue to deny that a wrong was committed? Or do we as a population have the ability to be
resilient and overcome past errors in an attempt to be greater as a whole now and in the future?
If this Honorable Court determines that a citizen can never be procedurally barred on an
unconstitutional law, it would be restoring faith that the Constitution as written should be
followed by all; especially those who are elected to uphold the law. The State of Louisiana cannot
claim to be simply upholding law that was good at the time when that law was wrong at the onset.

XXVll.

The maxim, Sir Thoma More said, is qui tacet consentire videtur. The Court can still rectify
the worst of this shameful complicity. For these reasons Mr. Lauga humbly request this Honorable
Court grant certiorari (direct collateral review), vacate his conviction and sentence, and end once
and for all Louisiana’s reasons for denying Constitutional Rights.

Respectfully Submitted?
£

/

William D. Laugal, # 568149
L.S.P. MPEY/Spruce 3
Angola, Louisiana. 70712

Date: August 25th, 2021

XXVlll.

